<html>
<title> - WHAT'S NEXT FOR LEBANON? EXAMINING THE IMPLICATIONS OF CURRENT PROTESTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
WHAT'S NEXT FOR LEBANON? EXAMINING THE IMPLICATIONS OF CURRENT PROTESTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 19, 2019

                               __________

                           Serial No. 116-81

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        

        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                       
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-448 PDF             WASHINGTON : 2020                     
 
 
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                       
                                     

               Jason Steinbaum, Democratic Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California                 STEVE CHABOT, Ohio
COLIN ALLRED, Texas                  ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey           LEE ZELDIN, New York
DAVID TRONE, Maryland                BRIAN MAST, Florida
BRAD SHERMAN, California             BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts       GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California              STEVE WATKINS, Kansas
               
                      Casey Kustin, Staff Director
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Humud, Ms. Carla E., Analyst in Middle Eastern Affairs, 
  Congressional Research Service.................................     8
Yacoubian, Ms. Mona, Senior Advisor for Syria, Middle East and 
  North Africa, United States Institute of Peace.................    20
Feltman, Amb. Jeffrey, John C. Whitehead Visiting Fellow in 
  International Diplomacy, Foreign Policy Program, Brookings 
  Institution....................................................    28
Ghaddar, Ms. Hanin, Friedmann Visiting Fellow, Geduld Program on 
  Arab Politics, The Washington Institute........................    39

                                APPENDIX

Hearing Notice...................................................    63
Hearing Minutes..................................................    64
Hearing Attendance...............................................    65

                       INFORMATION FOR THE RECORD

Information submitted for the record from Representative Chabot..    66



WHAT'S NEXT FOR LEBANON? EXAMINING THE IMPLICATIONS OF CURRENT PROTESTS

                       Tuesday, November 19, 2019

                       House of Representatives,

                    Subcommittee on the Middle East,

                    North Africa, and International

                               Terrorism,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 2:14 p.m., in 
room 2172, Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch [presiding]. This hearing will come to order.
    Welcome, everyone.
    The subcommittee is meeting today to hear testimony on the 
political, economic, and security environment in Lebanon in 
light of the ongoing public protests and calls for reform.
    I thank our witnesses for appearing here today.
    I note we are expecting further votes this afternoon. We 
are going to do our best to have as robust a hearing as we can, 
get to as many member questions as possible.
    I will now recognize myself for purposes of making an 
opening statement before turning it over to the ranking member 
for the same purpose.
    Since mid-October, massive protests have spread throughout 
Lebanon and brought more than a million people into the 
streets. Although triggered by a proposed tax on the messaging 
service WhatsApp, the demonstrations rapidly expanded to 
criticize government corruption and to question the pillars of 
the Lebanese political system.
    In the last few months, major protests have also developed 
in Iraq, Egypt, Algeria, and Iran. Although driven by country-
specific and local issues, these demonstrations share a common 
theme--frustration with unemployment, corruption, and a lack of 
political and economic opportunity.
    In Iran, the regime has responded with violence, reportedly 
killing at least a dozen people and injuring approximately a 
thousand and by shutting down the internet. This repression is 
shameful, and Congress stands with all of those peacefully 
protesting in Iran and throughout the region and condemns 
violent crackdowns on peaceful free expression.
    The peaceful leaderless protests in Lebanon are largely 
driven by youth and women. Unlike the 2005 demonstrations that 
launched the Cedar Revolution, the current demonstrations 
transcend sectarian divisions and are animated by unifying 
national themes. They are larger and more comprehensive than 
the 2015 protests that focused on the Lebanese government's 
inability to provide basic services, like trash collection.
    Amid these protests, Lebanon faces a dire economic crisis 
which prompted government officials to declare an economic 
State of emergency in September. Lebanon's debt-to-GDP ratio is 
more than 150 percent, one of the highest in the world. 
Lebanese banks have been intermittently closed for weeks and 
place limits on customer withdrawals.
    The government has been unable to implement reforms that 
would allow it to access the nearly $11 billion in economic 
assistance promised by the international community in 2018. 
Economic stagnation in Lebanon helped spark the protests last 
month, and the deteriorating economy could compound public 
frustrations in the coming weeks.
    Faced with this fluid situation, the United States should 
refrain from any actions that could destabilize Lebanon. Yet, 
on October 31st, the National Security Council and the Office 
of Management and Budget placed an indefinite and unexplained 
hold on $105 million in critical security assistance to the 
Lebanese Armed Forces. They did so against the recommendations 
of both the State Department and the Defense Department, and in 
opposition to the explicit direction of Congress.
    I share serious concerns about Hezbollah's massive rocket 
and missile arsenal in Lebanon and the LAF's inability to 
prevent Hezbollah's military buildup and dangerous activities 
on Lebanon's borders that threaten our partners. Rather than 
protect Lebanon, Hezbollah, with Iranian support and direction, 
and its advanced weapons, make the Lebanese people less safe.
    But I am also concerned when wholesale generalizations of 
LAF collaboration with Hezbollah are made. Pentagon officials 
claimed, and I quote, ``The Lebanese Armed Forces have 
consistently had the best end-use monitoring reporting of any 
military that we work with, meaning that the equipment that we 
provide to the Lebanese Armed Forces, we can account for it at 
any given time.'' Closed quote.
    Former CENTCOM Commander, General Joseph Votel, testified 
before Congress in February 2018 that, ``Since our security 
assistance began, Lebanon has maintained an exemplary track 
record for adhering to regular and enhanced end-use monitoring 
protocols. We are confident the LAF has not transferred 
equipment to Hezbollah.''
    The United States must continue to vigorously enforce 
mechanisms to ensure that no equipment provided to the LAF 
winds up in Hezbollah hands. U.S. training to help 
professionalize the Lebanese Armed Forces provides a bulwark 
against rogue individuals who might be persuaded to turn a 
blind eye to Hezbollah.
    On November 8th, Foreign Affairs Committee Chairman Engel 
and I sent a letter to the administration raising concerns 
about the pause in assistance and requesting details by 
November 15th. The administration has not provided a response. 
A continued freeze on assistance threatens to undermine the 
LAF, a non-sectarian, national institution that is strongly 
supported by the Lebanese public. It also weakens the LAF's 
ability to counter threats to Lebanon's security, including 
extremist groups like ISIS and al-Qaeda.
    It also sends the wrong message at a time when many of our 
partners are questioning our commitment to the region after 
President Trump's reckless withdrawal from Syria. Slowing the 
delivery of assistance allows adversaries, like Hezbollah and 
Iran and Syria and Russia, to make inroads in Lebanon by 
raising doubts about U.S. credibility. The administration 
should release its hold and resume assistance to the Lebanese 
Armed Forces, ensuring accountability and a continuation of 
comprehensive end-use monitoring protocols which will prevent 
our rivals from establishing a foothold in Lebanon.
    Looking ahead, the demonstrators in Lebanon are demanding 
wholesale political reform, a technocratic and non-sectarian 
cabinet, a new electoral law, and early elections. The United 
States should support these goals and discourage any violence 
against the protesters.
    However, we must refrain from intervening directly. 
Protesters have broadly rejected outside support, and given 
Lebanon's history, remain skeptical of external intervention. 
We should be clear that these are Lebanese protests driven by a 
wide array of Lebanese people who want transparent governance, 
accountable institutions, and a peaceful, prosperous future.
    I look forward to the testimony of our witnesses, their 
assessment of the protests, and suggestions for the way forward 
in Lebanon.
    And with that, I will yield to Mr. Wilson for his opening 
statement.
    Mr. Wilson. Thank you, Chairman Ted Deutch, for calling 
this important and timely hearing.
    For over a month now, the courageous people of Lebanon have 
taken to the streets demanding an end to the endemic corruption 
and sectarianism that have paralyzed their country for far too 
long. In a country like Lebanon, which has been divided, sadly, 
socially and politically along strict sectarian lines, these 
recent protests are historic. It is not just a protest of one 
community against another or one political interest over 
another. Citizens from all sects, from every corner of the 
country, have joined in these protests. They are a rejection of 
the entire political establishment and class. These protests 
are, in effect, a popular vote of no confidence, not just in 
the current government, but in the entire Lebanese political 
system writ large.
    These unprecedented, countrywide protests ultimately led to 
the resignation of Prime Minister Saad Hariri last month, but 
this announcement did not quell the protesters. In line with 
their now famous slogan of, quote, ``All of them means all of 
them,'' end of quote, the people of Lebanon have continued 
their demands that all of the country's sectarian party leaders 
resign. What they want is an overhaul of the entire political 
structure, not the resignation of a single individual.
    The ongoing protests in Lebanon present both challenges and 
opportunities for U.S. policy. On the one hand, it is difficult 
to assess exactly what kind of Lebanese government will emerge 
out of these largely leaderless, grassroots protests. What 
political solution will be acceptable to the people in the 
streets? How will that affect the U.S.-Lebanon bilateral 
relationship? How can we guarantee that the malign actors, 
including Hezbollah, will not exploit a potential political 
transition to come?
    On the other hand, these protests offer a major potential 
opportunity for the United States. The energy behind these 
protests signals a real desire among Lebanese of all ages to 
see a Lebanon free of many of the burdens of sectarianism that 
have held it back so long. They offer a momentum for change in 
Lebanon that has not been seen since its establishment.
    These protests also are very troubling for the Iranian 
oppressors. Taken together with the ongoing protests in 
neighboring Iraq, and also in Iran, it appears the people of 
the Middle East are beginning to chafe under the yoke of their 
Iranian oppressors. For the first time ever, we see Shiites in 
southern Lebanon openly protesting Hezbollah and criticizing 
its political leaders and allies. Hezbollah is always trying to 
paint itself as separate from the political class over which it 
has maintained a stranglehold in recent years. Its leaders and 
propaganda have, instead, made efforts to identify the 
terrorist group with the Lebanese people, not the defunct 
political establishment. But these protests have put a wrench 
in the Iranian proxy's designs.
    Hezbollah leader, Hassan Nasrallah, played the wrong hand--
dismissing protests as a hostile plot by Western and Israeli 
governments, instead of supporting the public outcry. This 
confirmed to many that Hezbollah is, in fact, part and parcel 
of the Lebanese political establishment that cannot be trusted. 
We can only hope that as this movement progresses more and more 
support for Hezbollah diminishes in Lebanon.
    I look forward to hearing from our distinguished witnesses 
today about how the United States can facilitate a positive 
outcome for the people of Lebanon, and specifically, what 
Congress can do in a bipartisan manner.
    Thank you again, Mr. Chairman, and with that, I yield back.
    Mr. Deutch. Thank you, Mr. Wilson.
    I will now recognize members of the subcommittee for 1-
minute opening statements, should they choose to make one.
    Mr. Sherman, you are recognized.
    Mr. Sherman. We stand with the people of Lebanon. We stand 
with the people of Iran.
    I look forward to working with members of the subcommittee 
on legislation I am working on, which I have tentatively 
titled, ``the Hezbollah Leadership Corruption Disclosure Act,'' 
which would use the intelligence community's capacities to 
determine what assets are owned around the world by Hezbollah 
leadership and disclose that. Because every villa disclosed, 
every French chalet disclosed is a nail in the coffin of a 
violent and corrupt terrorist organization.
    I yield back.
    Mr. Deutch. All right. Thank you, Mr. Sherman.
    Mr. Chabot is recognized for 1 minute.
    Mr. Chabot. Thank you, Mr. Chairman.
    As a former chairman of this committee myself, I have 
followed Lebanon very closely for some time now. The protests 
over the last several weeks show that the Lebanese people are 
fed up with the systematic corruption by the Lebanese 
government, to the point that protests have transcended 
sectarian differences.
    To date, Lebanon has been unable to enact necessary, and 
now urgent, if politically difficult, economic reforms, even 
with the generous international aid package waiting. Now is an 
excellent opportunity for Lebanon to actually make those 
reforms and get its fiscal house finally in order.
    The protests referred to by our chairman are also a sign 
that the Lebanese people have had enough of Hezbollah, a 
completely corrupt organization, which, hopefully, 1 day will 
be cast out by the Lebanese people. They deserve so much 
better.
    I yield back.
    Mr. Deutch. Thank you, Mr. Chabot.
    Mr. Pence, you are recognized for 1 minute, should you 
wish. Should you wish, or we can go to the witnesses.
    All right. Without objection, all members may have 5 days 
to submit statements, questions, and extraneous materials for 
the record, subject to the length limitations of the rules.
    And I will now introduce the witnesses.
    Ms. Carla Humud is an analyst in Middle Eastern affairs at 
the Congressional Research Service. She covers Syria, Lebanon, 
and the Islamic State for the Middle East-Africa section of 
CRS's Foreign Affairs, Defense, and Trade Division.
    Ms. Mona Yacoubian is the senior advisor for Syria, Middle 
East, and North Africa at the United States Institute of Peace. 
Prior to joining USIP, she served as Deputy Assistant 
Administrator in the Middle East Bureau at the United States 
Agency for International Development, from 2014 to 2017, where 
she had responsibility for Iraq, Syria, Jordan, and Lebanon. 
She previously worked on Middle East and North Africa issues at 
the Stimson Center at USIP and at the State Department's Bureau 
of Intelligence and Research. Her current research focuses on 
conflict analysis and prevention in the Middle East. Ms. 
Yacoubian earned an MPA from Harvard's Kennedy School of 
Government and a BA from Duke University.
    Ambassador Jeffrey Feltman is the John C. Whitehead 
Distinguished Visiting Fellow in International Diplomacy in the 
foreign policy program at the Brookings Institution and a 
senior fellow at the U.N. Foundation. From July 2012 until his 
April 2018 retirement, Ambassador Feltman has served as United 
Nations Under-Secretary-General for Political Affairs. Before 
joining the United Nations, Mr. Feltman was a U.S. Foreign 
Service Officer focusing largely on the Middle East and North 
Africa. Ambassador Feltman served as Assistant Secretary of 
State for Near Eastern Affairs, U.S. Ambassador to Lebanon, and 
a variety of posts across the Middle East. He is the recipient 
of two Presidential Service Awards and several State Department 
Superior Honor Awards.
    And finally, Ms. Hanin Ghaddar is the Inaugural Friedmann 
Visiting Fellow at the Washington Institute for Near East 
Policies, Geduld Program on Arab Politics, where she focuses on 
Shia politics throughout the Levant. She is the long-time 
managing editor of Lebanon's NOW News website, and has also 
contributed to a number of U.S.-based magazines and newspapers, 
including The New York Times, on foreign policy. Prior to 
joining NOW, Ms. Ghaddar wrote for several Lebanese newspapers.
    Thanks to our really esteemed panel for being here today.
    And let me remind the witnesses to please limit your 
testimony to 5 minutes. Without objection, your prepared 
written statements will be made part of the hearing record in 
their entirety.
    We are really grateful for all of you taking the time to 
join us.
    Ms. Humud, you are recognized for 5 minutes.

STATEMENT OF CARLA E. HUMUD, ANALYST IN MIDDLE EASTERN AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

    Ms. Humud. Thank you, Chairman Deutch, Ranking Member 
Wilson, members of the committee, for inviting me to testify 
today about the situation in Lebanon on behalf of the 
Congressional Research Service. I will summarize my written 
statement by speaking briefly about the domestic issues that 
have sparked the protests, the challenges faced by the main 
actors in Lebanon, and policy questions for the United States.
    The resignation of Lebanese Prime Minister Saad Hariri on 
October 29th followed nearly 2 weeks of nationwide mass 
protests, described as potentially the largest in Lebanese 
history. The movement reflects broad dissatisfaction with what 
protestors describe as government corruption, ineptitude, and 
economic mismanagement.
    Protestors have cited the State's failure to consistently 
provide basic goods and services, including water, electricity, 
garbage collection, as well as fair access to jobs and 
educational opportunities. Protestor demands include the 
appointment of a new government of independent technocrats, 
early elections, a new electoral law, the return of what they 
describe as looted public funds, and a fundamental change to 
Lebanon's sectarian-based political system.
    The outcome of the protest movement will be shaped by 
decisions made by four players, including the protestors, the 
political elite, the army, and Hezbollah. The protestors face 
the challenge of sustaining momentum as government formation is 
delayed potentially for weeks or months. While the movement has 
been leaderless thus far, protestors must decide whether to 
risk fragmentation, but potentially gain greater influence by 
selecting representatives that can negotiate with the 
government on specific policy issues.
    Lebanese political elites face the task of appearing 
responsive to widely held political grievances while avoiding 
concessions that could significantly undermine their hold on 
power. They may consider the possibility of co-opting or 
waiting out the movement. They could also attempt to divide it 
by using loyalist groups to cause disruption and introduce a 
sectarian element, some of which we have already seen.
    The Lebanese army must balance pressure from political 
elites to clear protestors from key roadways and infrastructure 
against its longstanding reputation as a neutral body and its 
policy of non-interference in political disputes.
    Hezbollah has expressed support for some protestor demands 
while also working to preserve the political status quo from 
which it benefits. Hezbollah, like other key players, is not 
necessarily a unitary actor in this conflict. Some Hezbollah 
supporters have participated in protests while others have 
deployed to the streets and targeted demonstrators. Hezbollah 
seeks to focus the debate around issues such as State 
corruption and away from core issues such as whether Hezbollah 
should preserve weapons outside of State control.
    These actors are operating against the backdrop of a major 
economic crisis and the risk of the government defaulting on 
its debt, adding additional urgency to the cabinet-formation 
process. All of this raises questions for the United States 
regarding how the U.S. should prioritize different, potentially 
competing policy goals, at a time of domestic uncertainty in 
Lebanon.
    Successive U.S. administrations have identified several 
core policy goals for Lebanon. These have included:
    One, reducing the influence of Hezbollah and Iran via 
efforts to strengthen Lebanese State institutions. This 
includes supporting the LAF's ability to extend State control 
throughout the country, especially in Hezbollah strongholds in 
southern Lebanon.
    Two, strengthening Lebanon's border security and 
counterterrorism capabilities, in light of spillover from the 
conflict in neighboring Syria and the movement of fighters 
linked to Al-Qaeda and the Islamic state.
    Finally, preserving stability in Lebanon and, in 
particular, alleviating the impact of the more than 1 million 
Syrian refugees currently residing in the country.
    Congress has appropriated funds aimed at the policy 
objectives outlined above while also placing certification 
requirements on U.S. assistance funds to prevent their misuse 
or transfer to Hezbollah or other designated terrorist groups.
    Until now, Hezbollah operations targeting Israel, the 
infiltration of Sunni extremist groups from neighboring Syria, 
and social tensions between refugees and host communities had 
been the primary potential sources of instability in Lebanon. 
The domestic protest movement which calls for a fundamental 
shift in Lebanon's political system adds a new element.
    In light of the fluid situation in Lebanon, U.S. 
policymakers may debate how to best strike a balance between 
encouraging broad reform, preserving stability, and countering 
Hezbollah, and how to prioritize these objectives, if and when 
necessary.
    This concludes my brief remarks, and I look forward to your 
questions.
    [The prepared statement of Ms. Humud follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       Mr. Deutch. Thank you, Ms. Humud.
    Ms. Yacoubian, you are recognized.

 STATEMENT OF MONA YACOUBIAN, SENIOR ADVISOR FOR SYRIA, MIDDLE 
    EAST, AND NORTH AFRICA, UNITED STATES INSTITUTE OF PEACE

    Ms. Yacoubian. Chairman Deutch, Ranking Member Wilson, and 
members of the Middle East and North Africa Subcommittee, thank 
you for the opportunity to testify on the implications of the 
current protests in Lebanon. The timing for this hearing is 
especially important, given the dramatic nature of the protests 
and the challenges and potential opportunities they pose to 
U.S. interests.
    I have followed developments in Lebanon over many years, 
and currently, I am a senior advisor at the United States 
Institute of Peace. Please note that the views expressed here 
are my own and not necessarily those of USIP.
    Since October 17, Lebanon has witnessed historic mass 
protests bringing more than 1 million people to the streets 
across the country. The largest peaceful uprising comes amidst 
the mounting financial crisis that could bring about a total 
collapse of the economy. The economy's warning lights have been 
blinking red for some time. Stagnant growth has prompted 
mounting unemployment, especially among youth. Lebanon's debt-
to-GDP ratio is among the highest in the world. Its fiscal 
deficit is ballooning, and the country has a severe foreign 
exchange shortage. Limits on bank withdrawals and concerns over 
fuel and even food shortages have contributed to a growing 
sense of panic. In short, Lebanon is on the verge of a 
catastrophic economic meltdown.
    The current protests are different from past demonstrations 
in precedent-setting ways. The protests are decidedly anti-
sectarian. Previously, protest movements have been captured by 
sectarian interests, leading to their demise or provoking 
greater polarization. Thus far, demonstrators have resolutely 
rejected efforts to inject sectarian demands or rhetoric into 
the protests.
    They are geographically diverse. Marches and demonstrations 
continue to occur across Lebanon from the north to the south, 
from the Beqaa Valley to the coast. Women and youth are at the 
forefront, playing an outsized role. Themes of civic engagement 
resonate across the protests. Discussion circles and debates on 
a broad range of issues occur daily across the country.
    However, the early optimism of the protest has given way to 
fears about darker scenarios unfolding. Two looming, dangerous 
dynamics, if unchecked, can quickly engulf Lebanon in 
widespread chaos and violence--an impending financial collapse 
or agitators turning the protests violent.
    Lebanon's revolutionary moment holds important implications 
for U.S. national security interests which are predicated on 
maintaining Lebanon's security and stability. Should the 
current protests be overwhelmed by financial collapse, a turn 
to violence, or both, U.S. national security interests would, 
likewise, come under significant threat.
    Given the stakes, it is critical that the United States 
proceed wisely and cautiously at this sensitive and potentially 
dangerous juncture for Lebanon. U.S. engagement should be 
guided by two key principles. One, engage where the U.S. has a 
comparative advantage, cultivating institutions that serve as a 
foundation for vibrant democracy. And two, refrain where the 
U.S. presence does more harm than good, in particular, 
resisting the temptation to support the protestors directly or 
transform the protests into a cudgel to use against Hezbollah 
and Iran.
    Hezbollah Leader Hassan Nasrallah has been unnerved by the 
demonstrations which have occurred in Hezbollah strongholds, 
signaling its constituency's deep discontent over socioeconomic 
issues. The Shiite militant group has expertly navigated 
Lebanon's sectarian system to accrue more power with little 
accountability, raising the slogans of resistance while 
engineering and manipulating the Lebanese governing system 
behind the scenes.
    As a prime beneficiary of the current status quo, Hezbollah 
would lose significantly, should the protestors' demands be 
fulfilled. A new governance system in Lebanon based on strong 
civic ideals and responsive, accountable, and inclusive 
institutions would dramatically undercut Hezbollah's influence.
    To conclude, I would like to highlight four key U.S. policy 
recommendations.
    One, work with key countries to pressure Lebanon's 
sectarian power brokers for the urgent appointment of a cabinet 
of independent technocrats to address the impending financial 
collapse.
    Two, engage international financial institutions to develop 
an emergency financing package conditioned on appropriate and 
necessary reforms.
    Three, maintain U.S. economic assistance to Lebanon. 
Lebanon hosts the highest number of per capita refugees in the 
world, and U.S. economic assistance has played an important 
role in supporting local communities.
    And four, unfreeze the $105 million in U.S. security 
assistance to the Lebanese Armed Forces, the most respected 
State institution in Lebanon with strong popular support.
    Thank you, and I am happy to take your questions.
    [The prepared statement of Ms. Yacoubian follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Mr. Deutch. Thank you, Ms. Yacoubian.
    There is one vote on the floor, and there is about 10 
minutes left on the vote. So, I think we are going to, if the 
witnesses can sit tight, we are going to break for a moment, 
head off to the floor, cast our one vote, and come back for the 
rest of your testimony and questions.
    And with that, we will temporarily adjourn.
    [Recess.]
    Mr. Deutch. The hearing will come back to order.
    Thanks so much to the witnesses for indulging us as we do 
our other important work, casting votes on the House floor.
    And with that, Ambassador Feltman, you are recognized for 5 
minutes.

STATEMENT OF JEFFREY FELTMAN, JOHN C. WHITEHEAD VISITING FELLOW 
 IN INTERNATIONAL DIPLOMACY, FOREIGN POLICY PROGRAM, BROOKINGS 
                          INSTITUTION

    Ambassador Feltman Thank you for inviting me.
    I will summarize my written testimony submitted for the 
record. I note that I represent only myself; the Brookings 
Institution does not take any institutional position on policy 
positions.
    Lebanon's current protests are not about the United States, 
but the protests can affect our interests. Congressional 
attention at this pivotal moment, therefore, is most welcome. 
In my view, a realistic U.S. policy for Lebanon has three 
elements.
    First, undermine Hezbollah's resistance, clean and anti-
establishment narrative, most importantly among the Shia.
    Second, support the capability, credibility, and 
transparency of national institutions like the Lebanese Armed 
Force vis the sectarian ones represented by Hezbollah.
    Three, prevent Hezbollah, Iran, Syria, or Russia from 
filling the space, from controlling strategic Mediterranean 
ports and hydrocarbons.
    Successful implementation of these elements would help 
discredit the nonsense that Hezbollah's rockets defend Lebanon, 
when Hezbollah's rockets are what put Lebanon at risk of war.
    The current demonstrations by Lebanese disgusted with the 
status quo politics are more significant, as the other speakers 
have noted, than the 2005 protest movement against the Syrian 
occupation. This time, the Shia have joined.
    Hassan Nasrallah's red line against the resignation of 
President Aoun or early parliamentary elections ties Hezbollah 
tightly to the corruption and the cronyism that enrages the 
protestors. The demonstrators will not forget that Hezbollah 
deployed thugs on motorcycles to break up the protests by 
force.
    Foreign Minister Gebran Bassil, who enabled the expansion 
of Hezbollah's power by handing the terrorist organization a 
veneer of Christian cover, is now discredited as the symbol of 
everything that ails Lebanon. In other words, the Lebanese 
themselves are now undermining Hezbollah's once untouchable 
status.
    Regarding support for national institutions, my second 
point, U.S. support has contributed to the Lebanese Armed 
Forces mostly, but not entirely, restrained professional 
reaction to these demonstrations. Compare this with how 
Egyptian or Iraqi or Syrian or Iranian armed forces deal with 
protests. Among the Lebanese, confidence in the LAF, in 
general, is rising, and our assistance made this possible. It 
is in our interest that this continues.
    Does this mean that the Lebanese Armed Forces should try to 
disarm Hezbollah by force? That would spell civil war. And as 
we have seen in Lebanon, in Iraq, in Syria, and Yemen, Iran 
uses civil wars to implant terrorist proxy organizations, and 
Al-Qaeda and ISIS and their affiliates also exploit the chaos 
of civil war. Civil war is not in our interest.
    The U.S. has some legitimate concerns about the Lebanese 
Arm Forces' performance, but the FMF should resume quickly and 
publicly, both because of the program's merit in terms of 
improving the LAF's counterterrorism performance, but also to 
undermine the Hezbollah, Iranian, Syrian, Russia narrative that 
the U.S. is unreliable.
    Mr. Chairman, the Lebanese face choices regarding 
government formation and policies, and it is happening, as my 
fellow panelists noted, in the middle of a financial crisis, a 
severe financial crisis. The United States cannot make 
decisions for the Lebanese. But, given how our interests will 
be affected by how this evolves, we can clarify the 
implications of the directions that the Lebanese might be 
considering.
    Our message, in my view, should be twofold: that, first, 
the United States can help mobilize the international support 
that Lebanon needs, but that, second, we could only do so if a 
credible, incoming government adopts the effective reforms and 
anti-corruption measures that are demanded by the protestors; 
and to attract the investment and the financial deposits that 
Lebanon needs to prosper and to avoid economic collapse, 
Lebanese officials will have to at last satisfactorily resolve 
the longstanding contradiction between a citizenry that largely 
identifies with the West with policies that tolerate harboring 
an Iranian terrorist organization and that lean toward an 
Iranian-Syrian axis.
    Thank you, Mr. Chairman and members, and I look forward to 
your questions.
    [The prepared statement of Ambassador Feltman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Deutch. Thank you, Ambassador Feltman.
    Ms. Ghaddar, you are recognized.

 STATEMENT OF HANIN GHADDAR, FRIEDMANN VISITING FELLOW, GEDULD 
       PROGRAM ON ARAB POLITICS, THE WASHINGTON INSTITUTE

    Ms. Ghaddar. Chairman Deutch, Ranking Member Wilson, and 
distinguished members of the committee, thank you for inviting 
me today to speak about my country, Lebanon. This is a summary 
of a longer statement that I submitted.
    The core of the protests are the failing economic 
conditions and the persistent corruption of the ruling class, 
but they evolved to target the fundamental issues such as the 
sectarian system. The bleak economic situation is evident in 
the fact that Lebanon's readily available foreign reserves are 
now valued at less than $10 billion, which are not expected to 
last more than three or 4 months. And economic collapse is 
likely. Only a government made up of independent technocrats 
can gain the confidence of the Lebanese people and allow the 
international financial assistance.
    However, the current parliament with the pro-Hezbollah 
majority and the current President are not allowing it. 
Hezbollah is worried that a new, independent government would 
be the first step in isolating the party. Successful protests 
mean that Hezbollah will lose state entities through which they 
control the country's main security and financial decisions.
    As Hezbollah is going through its own financial crisis, 
thanks to the U.S. sanctions on Iran, Hezbollah's reaction has 
been intimidation of the protestors. But to avoid an Iraqi 
scenario, Hezbollah is using its influence within State 
institutions, mainly certain units within the Lebanese army, to 
quell the protests.
    The United States has so far provided the Lebanese army 
with $2 billion since 2006 in military equipment and 
international military education and training. This aid is the 
most significant leverage the U.S. has in Lebanon. However, it 
is not the equipment that Hezbollah needs. It is the LAF 
security decisions. Today, the LAF stands at a critical 
juncture, and three main issues are troubling.
    First, the LAF withdrew from portions of the south and the 
Beqaa, known to be Hezbollah's core areas. It is important to 
note that the Shia community that is Hezbollah's main 
constituency has joined the protests, which makes Hezbollah 
extra-anxious about losing its support base. As they intimidate 
the Shia protestors, the army was asked to leave.
    Second, the LAF started unblocking roads using excessive 
force under enormous pressure by the authorities.
    Three, factions within the LAF known to be affiliated with 
Hezbollah started a wave of unlawful arrests of activists. Some 
are still detained while others were released with clear signs 
of torture on their bodies. One has died.
    You can clearly see the contradicting affiliations within 
the LAF units. For example, parts of the military intelligence 
and the Republican Guards that are close to the President are 
acting to fulfill Hezbollah's agenda. However, there are many 
army units that are not. These elements will be much needed if 
violence escalates and the economic crisis deepens.
    So, what can the U.S. do?
    On the aid for the LAF, continue urging the LAF to protect 
non-violent protestors.
    The United States should reiterate that continued U.S. 
assistance to the LAF is contingent on safeguarding the 
protestors.
    Urge the LAF to protect all Lebanese citizens, including 
the Shia.
    Condition military aid to the LAF to ensure that the units 
within the army which are using excessive force do not benefit 
from it. It is vital that the U.S. aid to the army does not 
help units that are violating basic human rights.
    Eventually, maybe redesign the aid package itself. My 
reading of the FMF authority is that it is for purchase by 
foreign governments of defense material, training, and related 
services. However, the most serious challenge facing the LAF 
will be salary payments. As the State goes bankrupt very soon, 
implications of absentee LAF members include security and 
ensuring integrity of U.S.-origin equipment, making sure 
equipment does not fall into the wrong hands. Therefore, I 
would recommend that the committee explore with the State and 
Defense Departments a short-term program to cover salary 
payments for certain units in the case of economic collapse.
    Domestically, exert pressure on President Michel Aoun to 
call for immediate parliamentary deliberations and early 
elections. This current parliament cannot and will not lead 
required reforms.
    Sanction Hezbollah's allies. President Aoun, Speaker Nabih 
Berri, and Foreign Minister Gebran Bassil are not only 
Hezbollah's main allies, they are also the most corrupt 
political figures in Lebanon. They need to be held responsible 
for the country's dire economy and instability.
    Internationally, work closely with the Europeans to ensure 
that any stability-related financial aid to Lebanon is not 
provided unless early elections are called and reforms begin.
    Finally, address Iran's regional operations. From Iran to 
Iraq and Lebanon, it has become very clear that Iran is not a 
factor of stability. Accordingly, any future negotiations with 
Iran need to address its regional presence and influence.
    Thank you.
    [The prepared statement of Ms. Ghaddar follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Mr. Deutch. Thank you very much, Ms. Ghaddar.
    Thanks to all the witnesses.
    We will turn to questioning by the members, and I will 
actually defer to Mr. Wilson to start us off.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank each of you. Each one of you were very perceptive 
and show a deep concern for the people of Lebanon, with which 
many of us associate because Lebanese-Americans are so 
enterprising and well-thought-of in our local communities. And 
so, it is particularly distressing to see what should be such a 
vibrant country have such a dire economic future.
    With that in mind, Ms. Ghaddar, there have been attempts to 
reform the economy and address Lebanon's phenomenal financial 
distress of a debt service equal to half of the government's 
revenues. Why have these efforts failed? What reforms should be 
promoted?
    Ms. Ghaddar. Thank you very much for this is a very 
important question.
    The CEDRE aid which was dedicated to Lebanon in 2018 
addresses many of these reforms, especially reforms of the 
electricity sector which takes a huge number of Lebanon's 
budget and, also, the augmented public sector. It is very clear 
what reforms should be implemented. It is all listed in the 
aid.
    I think the problem is that, because the political class 
are so corrupt, they are benefiting from the electricity sector 
and the augmented public sector. For example, they use the 
public sector to employ their own supporters who do not do 
anything. So, this is a big deal.
    These are some of the reforms that can be done. However, 
the current authorities failed since the CEDRE aid in Paris was 
announced to implement these reforms because they will not 
benefit from them. On the contrary, they will lose. So, that is 
why they, themselves, cannot implement these reforms. And CEDRE 
aid is there. It is $11 billion US dollars that are ready to be 
given to the Lebanese State on condition of these reforms.
    Mr. Wilson. Thank you.
    And, Ms. Yacoubian, what do the current protests mean for 
Iran's primary proxy Hezbollah? Is there a way that the U.S. 
can leverage the momentum of these protests to drive a further 
wedge between Hezbollah and the people of Lebanon?
    Ms. Yacoubian. Thank you.
    Clearly, as I noted in my oral satement and as well in my 
written testimony, Hezbollah has also been impacted by these 
protests. Shia communities have taken part in the protests. 
There have been demonstrations in areas that are considered 
Hezbollah strongholds. As I note in my written testimony, what 
was once called ``the wall of fear'' surrounding any sort of 
open criticism of Hezbollah, of Hassan Nasrallah, there are 
cracks in that. So, that is significant.
    I would argue that this movement is powerful because it is 
Lebanese, because it is organic. And as I note in my testimony, 
I think the most important thing the United States can do with 
respect to the protests themselves is step back, is continue to 
provide the sort of very important assistance we provide and 
have provided, whether to the Lebanese Armed Forces or our 
economic assistance to Lebanon, which is also significant. But 
I think the extent to which the United States attempts to put 
itself frontally into these protests will only backfire, will 
serve to discredit the protests. And, in fact, the protestors 
themselves have been quite clear that they are not interested 
in support from any foreign power, from any sort of foreign 
interference.
    At the same time, as I noted, I think if we see the 
protests, if we can allow for an environment that enables not 
only the protests to continue, but, more importantly, their 
demands to be fulfilled for responsive governance, for an end 
to corruption, for strong State institutions, that, to my mind, 
is the most important counterweight to Hezbollah. That kind of 
transition in Lebanon will do more, in my view, to undermine 
Hezbollah than an attempt to, sort of in a ham-handed way, 
manipulate the current protests as a cudgel against Hezbollah 
and, by extension, Iran.
    Thank you.
    Mr. Wilson. And, Ms. Humud, with the current protests 
underway in Lebanon, Iraq, and Iran--and there were reports 
today of deaths across Iran in the past couple of days--is this 
part of a bigger movement? Or how do you contextualize this?
    Ms. Humud. I think in some ways this is part of a broader 
trend of societies and populations demanding fundamental 
reforms and dissatisfaction with corruption. That being said, 
there are specific elements that are particular to Lebanon. The 
sectarian element is one that is particular to Lebanon, and 
that has really been a unique factor of this movement.
    Mr. Wilson. Thank you. My time is up, and I appreciate the 
chairman being so magnanimous to let me go first. Thank you.
    Mr. Deutch. Thank you, Mr. Wilson.
    Before going to Mr. Watkins, can I just ask--Ms. Humud, we 
have heard throughout the day, throughout this hearing, that 
one of the key demands is an end to a sectarian political 
system. Can you just give us some perspective on what that 
system is now that they are protesting against?
    And then, we will go to you, Mr. Watkins.
    Ms. Humud. Sure. The Taif Accords that ended Lebanon's 
civil war mandated a sectarian system that divides or 
distributes political power based on religious or sectarian 
identity. So, Lebanon's parliament is evenly divided between 
Muslims and Christians, and that division filters its way down 
to the cabinet and into other State institutions. And so, what 
this means is that Lebanese citizens in some ways organize and 
are mobilized based on their religious or sectarian identity 
rather than on an issues-driven basis. And that is primarily 
what the protestors are seeking to address, rather than a 
system whereby politicians are able to divide citizens based on 
identity, that they can identify these sort of cross-sectarian 
issues that really are common to all citizens, primarily the 
economy at this point.
    Mr. Deutch. Thanks. Ultimately, the desire to be viewed as 
Lebanese citizens rather than Sunni and Shia or----
    Ms. Humud. Yes.
    Mr. Deutch [continuing]. Hezbollah?
    Ms. Humud. Yes.
    Mr. Deutch. Thank you.
    Mr. Watkins, you are recognized.
    Mr. Watkins. Thank you, Mr. Chairman.
    Thanks to the panel for being here.
    I would like to ask about the international response. And I 
am going to throw these questions to anybody. Particularly 
European, Russian, Iranian response to the protests, what have 
those been like?
    Ms. Ghaddar. On the Iranian part, I have been following 
very closely the Iranian responses. Obviously, it was exactly 
as Hezbollah's responses, that these protests are rightful in 
their demands. But that they have been penetrated by the Mossad 
and CIA and all the Western intelligence to direct them. That 
it is not about reforms anymore. It is about fighting the axis 
of resistance, et cetera, et cetera; discrediting the protests, 
and siding with the authority.
    At the beginning of the protest, the Iranians and Hezbollah 
together, at the very beginning they said that this government 
is not going to fall. And for the first time, Hezbollah was 
wrong; the government resigned. The first speech of Hassan 
Nasrallah was siding with the authorities against the protests. 
In his second speech Hassan Nasrallah was becoming the 
authority against the protests. He now is the authority. The 
people in the streets see him as the authority. They all see an 
Iranian influence in Lebanon. And that is why, for the first 
time, you see people turning against Hassan Nasrallah himself.
    Now it is very obvious; Hezbollah is blocking the formation 
of a new, independent government. The Iranians and Hezbollah's 
position has been, with the authority, against the people.
    Mr. Watkins. Let me actually jump over to the economy and 
corruption, please. What can the U.S. do to help the people of 
Lebanon counter corruption? Anybody?
    Ms. Ghaddar. As I mentioned in my recommendations, it is to 
stress on the early elections and independence.
    Mr. Watkins. Thank you.
    Go ahead, sir.
    Ambassador Feltman Thanks for the question.
    I think, in general, many of the Lebanese status quo 
leaders, the ones that the protestors are demanding be ousted, 
probably believe they can wait out the protests, that the 
protests cannot go on forever. And then, they can go back to 
their normal way, business as usual, and avoid any kind of 
accountability or scrutiny of what has happened.
    But what is different this time is the financial crisis 
that people have mentioned. The financial crisis is basically a 
ticking bomb. And that gives the protestors and the outside 
supporters of the idea of an independent, sovereign Lebanon 
some leverage.
    The United States showed leadership back in 2006 after the 
war between Hezbollah and Israel in helping to shore up 
Lebanese finances at that time, helping to persuade Gulf Arab 
States to put money into the central bank, deposits to shore up 
the currency, come up with the international assistance 
package, bring in investors. All these things can be done 
again.
    But I think it should be clear to the Lebanese that we are 
not going to exercise our leadership or our political 
investment in these types of initiatives unless they make the 
fundamental changes, that this will have a long-term impact. 
Those privatization ideas dealing with the telecom, with the 
electricity, with offshore hydrocarbons, right now no one on 
the street would trust those as actually benefiting the people 
or providing various services over the long term.
    So, I think you could put together a package, but the 
package needs to be linked with fundamental changes inside 
Lebanon about how Lebanon is going to be governing going 
forward and how do you resolve that contradiction between a 
Western ally of Lebanon and the fact that they are harboring an 
Iranian terrorist organization?
    Mr. Watkins. Understood.
    One last question. The Lebanese institution, the military, 
how is the army viewed by the Lebanese people?
    Ms. Yacoubian. I will take an initial stab. I think the 
army is the institution that is most respected by the Lebanese 
public. It is a cross-sectarian institution. I think my 
colleagues have rightly pointed out ways and areas in which 
there are elements of the Lebanese army that have not behaved 
properly. For the most part, the Lebanese army has, in fact, 
conducted itself professionally. It is very well regarded by 
the Lebanese in polling and other types of instruments to 
indicate popular support, or lack thereof.
    Mr. Watkins. Understood. Thank you.
    Ms. Ghaddar. Can I just add one little thing?
    Mr. Watkins. Yes, sure.
    Ms. Ghaddar. It is really the army intelligence. There is a 
huge difference between the army intelligence and the rest of 
the army units. The people today see the difference and the 
Lebanese still respect the army, but they do not respect the 
army intelligence.
    Mr. Watkins. Understood. Thank you.
    I yield.
    Mr. Deutch. Thank you, Mr. Watkins.
    I would just like to followup on much of this discussion 
about reforms to the corruption in the political system. There 
have been calls from the international community which have 
offered assistance to national reforms of Lebanon's government. 
Are these protests sufficient to bring about the reforms? And 
how much does it matter that the perception is that these 
protests are essentially leaderless? How can we get to make it 
stick?
    I guess, Ms. Ghaddar, we will start with you.
    Ms. Ghaddar. The protests are leaderless for a very good 
reason. The authorities have been looking for leaders to 
discredited them. They have been looking for leaders to arrest. 
They have been looking for leaders to intimidate. And that is 
why the protests are leaderless. One, for people to be safe, to 
protect themselves. And two, because it is really not about 
leadership this time. This is a real movement. It is not like 
the 2015 Uprising that started with civil society. It is not 
like the 2005 Cedar Revolution which was led by the March 14 
political camp. This is organic. This is pure Lebanese.
    And a lot of people try to represent themselves as 
representatives of the protests, the representatives of the 
revolution. They were all shunned. It is very important that we 
need to keep it leaderless because the objective is not to 
negotiate with authorities. The objective is to bring down the 
authorities.
    The next step, I think for the protestors themselves, and 
for a lot of people following Lebanon, is the following: the 
protest itself cannot change anything in terms of avoiding the 
economic collapse. The protests can push for change. The first 
achievement is that the government resigned.
    The second step is the small sample of elections that we 
had, which is the syndicates of the lawyers, the independent 
candidate won. For the first time ever, an independent 
candidate won. This tells you that elections can change things. 
It made people realize that the next step is actually beyond 
the government formation. It is really about early elections, 
based on a non-sectarian electoral law that would produce a new 
parliament, a new government, and a new President. And this is 
how we can actually move things forward.
    Mr. Deutch. Thanks.
    Ambassador Feltman, what can the United States and the 
international community do to help with both the call for early 
elections and the anti-corruption efforts?
    Ambassador Feltman I do think that the U.S. needs to 
release the FMF right away to show that we are supporting the 
national institution that, as Dr. Yacoubian said, is most 
respected in Lebanon. So, the FMF needs to go.
    But, beyond that, the fact that there is a financial 
crisis, the fact that everyone knows there is a financial 
crisis that needs to be avoided because of the risk that chaos 
just enables Iran and Al-Qaeda-type things, gives us some 
leverage.
    We have talked about the 2005 demonstrations and how these 
are different, but there is a lesson in the 2005 demonstrations 
that I think we need to keep in mind. Had the Lebanese 
themselves gone out, and the international community was paying 
no attention, and called for the Syrian occupation to end, 
those Lebanese protests would have been broken up brutally by 
the combination of the Syrian army and intelligence services. 
Had the international community been calling for the Syrian 
occupation to end, but the Lebanese were home and not paying 
any attention, nothing would have happened. It was the 
combination of the street protests in 2005 and the attention by 
the international community working in tandem that forced the 
Syrians out.
    We could have the same formula now. We do not know who the 
protest leaders are. They do not want us to know who their 
leaders are. There are not any leaders. But we know what their 
basic demands are. Those would be the same demands we would 
have, as the international supporters of Lebanon, for 
transparency and end to corruption, new electoral law. If we 
make it clear that the only escape from the financial crisis is 
implementing what the protestors are demanding, we have bottom-
up pressure from the street, outside pressure, multiplied by 
that financial crisis. I think we could make a difference.
    Mr. Deutch. Ms. Yacoubian, we hope that this hearing will 
help make a difference. How else can we contribute to this? 
What is your sense of how to strengthen the movement that is 
trying to accomplish these goals?
    Ms. Yacoubian. Again, first, I would underscore I think the 
movement, in and of itself, demonstrates the creativity, the 
ingenuity, sort of the talent, quite frankly, of the Lebanese. 
If you go online and watch Twitter and look at some of the 
things that they are doing, it is quite impressive. So, I do 
not know that they need help from us in that regard.
    I would sort of underscore Ambassador Feltman's point. I 
think this impending economic meltdown--and that is really what 
we are looking at--is a real forcing mechanism for action. The 
protestors have been quite clear about what they want. And 
again, it is very much, I think, about early elections, in 
particular.
    The U.S. has a lot that we can contribute in that regard. 
In my written testimony, I underscore the need to provide, for 
example, and to renew our assistance with regard to elections, 
observations, et cetera. I think that this is a moment where 
the international community quietly--France, the United States, 
other key powers--can really push and pressure the need to 
fulfill the demands of the protestors, and then, ideally, 
follow in with appropriate assistance to help Lebanon pursue 
free and fair elections going forward.
    Mr. Deutch. And finally, Ms. Humud, can you just give us a 
bit of historical perspective here on what these demands are 
and why, given Lebanon's history, the demands are not only not 
unreasonable, they are consistent with what we have seen 
before?
    Ms. Humud. The demands are definitely consistent with what 
we have seen before. As my colleagues have mentioned, the U.S. 
could respond in some ways by supporting protestor demands for 
change and conditioning U.S. assistance on reform; potentially 
targeting corrupt leaders, regardless of sect. There would be 
tradeoffs to this approach, of course. It could require 
severing ties with some of our traditional political allies in 
Lebanon. That, in turn, could push them toward external power 
brokers such as Iran, who share their goal of preserving the 
status quo. So, regardless of the approach the U.S. chooses to 
take, there will always be a tradeoff.
    In terms of Congress' role specifically, Congress could 
always pass legislation directing U.S. representatives at 
multilateral banks, development banks, to advocate for specific 
economic policies vis-a-vis Lebanon.
    Mr. Deutch. Thank you very much.
    We do not want to push them toward outside actors like 
Iran. And I will circle back to that, Ambassador Feltman.
    But, Mr. Vargas, I would like to recognize you for 5 
minutes.
    Mr. Vargas. Thank you very much, Mr. Chair and Ranking 
Member, and, of course, the witnesses here.
    Back in April 2017, I was able to take a codel with Darrel 
Issa to Beirut and other parts of Lebanon and got a chance to 
meet with a number of people while we were there. Of course, 
there was great concern about Hezbollah in the southern part of 
Lebanon. And I continue to have, of course, that great concern 
of what is going to happen there.
    I apologize, I had to miss part of the meeting earlier. So, 
I apologize for that. That is what happens when you have two 
meetings at the same time, two hearings.
    But I have great concern about that and the military 
buildup. And I would like to hear from you what you think is 
going to happen in the next few years because of that military 
buildup. Who would like to take that? Ambassador, why don't you 
handle that first?
    Ambassador Feltman I think that, as we saw in 2006, the 
risk of unanticipated war between Lebanon and Israel, between 
Hezbollah and Israel, is always there. It was a devastating war 
in 2006. At least on the Lebanese side--I was Ambassador at the 
time--it was not anticipated, and that risk is always there.
    I think that my view is that, because of its exposure in 
Syria right now, because of the exposure to domestic criticism, 
Hezbollah is not interested in a war with Israel at the moment. 
But that does not mean that a war with Israel will not happen. 
There could always be a miscalculation.
    But what I do think is encouraging, though, is the 
increased capabilities of the Lebanese Armed Forces. When I was 
Ambassador in Lebanon in 2007, the Lebanese army struggled for 
5 months, from May to September, to take out a Sunni terrorist 
organization, Al-Qaeda affiliate called Fatah al-Islam. It took 
5 months and there were 158 LAF soldiers killed, along with 50 
civilians and an entire Palestinian refugee camp. Nahral-Bared 
was completely destroyed, the home of 30,000 civilians.
    Fast forward to 2017. The Lebanese Armed Forces had an 
anti-terrorist operation on the eastern border with Syria where 
they were able to capture over 700 ISIS fighters with only 
seven LAF officers killed in only 10 combat days. That is in 
our interest, to see the Lebanese Armed Forces be combating 
terrorism. And the capabilities have improved because of the 
assistance, mentoring, FMF that we have provided.
    Mr. Vargas. I appreciate it. But one of the concerns from 
some of the people that we spoke to was that the LAF, in fact, 
was not going to be too involved in things that happened in the 
southern part of the country when it came to questions of 
Hezbollah and the fact that they would not be involved in that. 
I mean, I do not know if that is common thinking for everybody, 
but that certainly was the case with a number of people.
    Ambassador Feltman I mean the Lebanese Armed Forces does 
reflect the Lebanese society.
    Mr. Vargas. Right.
    Ambassador Feltman Every family has relatives at some level 
in the Lebanese Armed Forces. The Lebanese Armed Forces 
basically operates, tries to stay apolitical in a country where 
there is very little political consensus about how to move 
forward.
    I would argue that, if our benchmark for success with the 
Lebanese Armed Forces military assistance is that they take on 
Hezbollah frontally, that that is a mistaken benchmark; that 
that causes civil war. And Lebanon civil war is what gave 
Hezbollah the opening to begin with.
    Mr. Vargas. Right.
    Ambassador Feltman Hezbollah civil war----
    Mr. Vargas. You are right. That was my question. Because it 
seems like, when you are talking about the LAF, and I am 
asking, what do you think is going to happen in the south, 
well, the LAF. I thought, well, the LAF is kind of non-
existent; they are a non-issue in the south.
    Yes, go ahead.
    Ambassador Feltman I will turn it over to Dr. Ghaddar.
    Mr. Vargas. Doctor, go ahead.
    Ms. Ghaddar. I do not think Hezbollah would want the LAF to 
be involved in the south in case of any war with Israel or 
others. They do not need the LAF. Hezbollah does not need the 
LAF fighting capacities. They do not need their equipment. They 
do not need their training. They have more than that. So, this 
is not the issue for Hezbollah.
    What they need from the LAF, actually, is the security and 
military decisions. Their access to certain units and 
commanders is what they need. It is not the LAF itself. So, 
looking forward, we need to think about Hezbollah's access to 
these decisions.
    What I am worried about, looking forward, is that there is 
a potential split between the units because, as the crisis 
deepens and the economy crisis deepens, we will see more units 
moving in different directions, some closer to Hezbollah's 
agenda, some not. And eventually, when the economy collapses, 
who is going to pay salaries? The military equipment and 
training provided by the U.S. is going to be useless when they 
do not have salaries. So, this is something to think about.
    Mr. Vargas. My time has expired. Could I take 30 seconds?
    Thank you very much for that answer.
    And the last thing I would say is this, though: the issue 
of sectarian identity and the notion that there could be free 
and fair elections without taking into account sectarian 
identity, that certainly would go against what I saw while I 
was there. And again, I do not pretend to be an expert. I did 
get a chance to meet with different groups, and there is a 
very, very strong sectarian identity. And I do not know that 
having an election where some of those groups did not hold onto 
some sort of power would actually be beneficial. It probably 
would cut the other way, I would assume, but I do not know. 
Again, I am not an expert, but that did concern me when I 
heard, you know, to have early elections and have one group win 
and sort of dominate the politics, I thought, well, that is the 
old civil war that they had from 1975 to 1990, and we certainly 
do not want to go back to that.
    Ms. Ghaddar. Just one thing I should say. Since then, much 
has changed. I do not think the issue today is the sectarian 
identity. When you see the Lebanese protestors today, how 
united they are, and how the small elections that we had 2 days 
ago at the syndicates of the lawyers, what it means, I am not 
worried about that.
    Mr. Vargas. OK.
    Ms. Ghaddar. I think things have changed, and it also 
depends on the nature of the electoral law.
    Mr. Vargas. Yes. OK. Thank you very much.
    And, Mr. Chair, thank you very much. Ranking Member, thank 
you.
    Thank you, witnesses.
    Mr. Deutch. Thank you, Mr. Vargas.
    We have got just a few more questions if the witnesses will 
indulge us.
    Mr. Wilson, you are recognized.
    Mr. Wilson. Thank you, Mr. Chairman.
    Indeed, I appreciate the point of view of providing for 
economic reforms. And then, in terms of reforms to the 
government, technocrats, how do you identify corruption? What 
would be the definition of corruption? And we will begin with 
Ms. Humud and proceed all over. But how do you identify what 
the definition is of corruption? What are some examples of 
corruption? And who would you report the corruption to? And is 
there any independent judiciary or body to which corruption can 
be reported?
    Ms. Humud. Sure. Prime Minister Hariri, before his 
resignation, did float the idea of an anti-corruption 
committee. That is something that has been floated before, and 
we have not seen a lot of progress on there.
    One thing that various government officials before their 
resignation tried to do is this issue of financial disclosure 
and of lifting banking secrecy on their accounts to show 
greater transparency on the funding that they have, where it 
goes. I think there is also an additional issue of the budget, 
oversight of the budget, and budget auditing that has not been 
fully transparent in the past.
    Ms. Yacoubian. I would just add, very briefly, I think 
identifying corruption will not be difficult. It is pervasive; 
it is endemic. It is interesting to note that, in a recent 
Gallup poll, 93 percent of Lebanese believe that there is 
corruption around them. The country ranks 138th in the 
Transparency International poll.
    So, I think the issues really have to do with the ways in 
which this sectarian system that undergrids things_the 
families_and the ways in which, for example, contracts are 
guided toward particular families. This is why the garbage 
crisis came to what it came to with literally rivers of trash 
flowing in Lebanon.
    There has been some interesting research done on the extent 
to which, even down to the municipalities--that is where the 
rubber meets the road in terms of addressing everyday 
problems--that the corruption is so pervasive that it impedes 
effective solutions, because, again, it is about contracts and 
business and other things being steered toward favorites. So, 
there is quite a bit of cronyism.
    And I think, from my perspective, we have to be clear. This 
is an issue and a challenge in Lebanon that we are not going to 
be able to solve, that the Lebanese will not be able to solve, 
even despite the immediacy of the current problem. This is a 
generational challenge that is going to take quite some time to 
address.
    Mr. Wilson. Ambassador.
    Ambassador Feltman I think our interest is to prevent a 
collapse in Lebanon that would enable Iran to deepen its roots, 
Al-Qaeda affiliates to rise up again in the chaos of civil war 
or financial economic collapse. That is our interest. And that 
is linked to the anti-corruption, because the only way you are 
going to be able to prevent the crisis is to be seen by the 
population, by investors, by those would be supporting Lebanon 
from outside, that you are starting to address the corruption. 
But our interest is to prevent that collapse in order to 
prevent the chaos that benefits others.
    If there is an economic collapse in Lebanon, everybody 
hurts, but I think Hezbollah probably hurts a little bit less 
because of their own independent resources and things, and that 
is not in our interest. So, our interest is in anti-corruption 
more generally, but it is specifically linked to that desire 
not to see Lebanon collapse. And that is where I think that the 
financial crisis gives us the opportunity to reinforce and 
amplify the voices on the street calling for the type of 
government that would have the credibility and confidence to 
start to tackle this.
    As my colleague said, it is not going to be able to be 
rooted out overnight. But if you have a government that is seen 
as credible, competent, independent, you can start to attract 
the type of investment, the type of return of tourism and 
businesses that will buy time to allow those reforms to take 
place.
    Mr. Wilson. Thank you.
    Ms. Ghaddar.
    Ms. Ghaddar. Thank you.
    The general definition of corruption is, when political 
figures abuse the State's institutions and resources, and 
create followers instead of citizens. So, what the protests are 
about today is regaining citizenship and national identities 
rather than sectarian identities. And that is what the Lebanese 
are actually trying to do.
    The moment they become citizens, they are no longer 
followers, then the corrupt system will be shaken. For example, 
that is how Iran took over the State institutions, because 
Hezbollah protected the cronies and, in return, they got their 
allegiance. So, the President today is Hezbollah's ally and his 
son-in-law, the Foreign Minister, is also Hezbollah's main 
ally, in addition to the Speaker. And it is not a coincidence 
that the three of them are actually the most corrupt 
politicians in Lebanon. So, basically, when you target corrupt 
politicians, you automatically and indirectly contain 
Hezbollah.
    Mr. Wilson. Thank you very much to each of you.
    Ms. Yacoubian. Could I add one point?
    Mr. Wilson. Yes.
    Ms. Yacoubian. I think one other issue that we have not 
discussed is the need for oversight and the fact that this is a 
system in Lebanon that is without any sort of oversight and any 
sort of accountability to citizens. So, even things as basic as 
demanding transparency with respect to government spending and 
ensuring that parliamentary votes are public and known, there 
are a number of practices that can be undertaken to begin to 
shine light, to begin to open up, to begin to allow for more 
transparency, which is the best antidote to corruption.
    Mr. Wilson. Thank you.
    Mr. Deutch. Again, thanks to all the witnesses.
    Ambassador Feltman, public support for the Lebanese Armed 
Forces is soaring. Why is that the case? How are they perceived 
by the public? And what would be the consequences if our 
assistance to the LAF is significantly delayed or terminated?
    Ambassador Feltman Thank you.
    I think I probably would use a different term today than I 
used in that piece I wrote a few weeks ago because the army's 
records since the initial days is a little bit more mixed. But 
I believe strongly that the FMF, the assistance that we have 
given to the Lebanese Armed Forces over the years, particularly 
in the increases after the 2006 war, is in our interest. This 
is not a gift to the Lebanese. This is something that is in our 
mutual interest, the partnership.
    And it is also not unconditional. The improvements that I 
cited on their counterterrorism measures is directly related to 
the assistance, the training, the mentoring that we have given 
them.
    As my colleague to my right said, the Lebanese Armed Forces 
is probably the No. 1 most respected institution in the 
country. That does not mean that it is above criticism. It does 
not mean it is a perfect institution. We have seen evidence, we 
have seen units in these protests that have performed very well 
protecting protestors in Beirut. We have seen them stand away/
withdraw as thugs beat up protestors in Nabatieh in the south, 
as Ms. Ghaddar mentioned.
    But the FMF gives us the ability to build the type of 
partnership, to continue to cultivate the type of partnership 
where we can have influence on how the Lebanese Armed Forces 
develops over the longer term. And we have seen that in 
counterterrorism already. Our message now should be we expect 
professional, equivalent treatment by the Lebanese Armed Forces 
of the protestors across the entire country.
    But the most important thing is we are undermining 
Hezbollah's argument that only Hezbollah can protect Lebanon by 
helping the Lebanese build a credible national institution in 
which all Lebanese can be proud. It is undermining Hezbollah's 
narrative.
    Hezbollah's rockets, as I said earlier, do not defend 
Lebanon. They put Lebanon at risk of war. The Lebanese Armed 
Forces is the long-term defense for Lebanon, and I think it is 
in our interest that we remain partners with them.
    The other thing is, the Russians want to be there. The 
Russians will move into a vacuum if we aren't there. The 
Russians are already supporting General Haftar in Libya. The 
Russians are already deeply embedded in Syria. Do we really 
want the Russians to take over the entire Eastern 
Mediterranean? I would say no.
    And that reinforces my point, let the FMF flow now, but 
flow with a message. Flow with a message about what we expect 
of the LAF performance during this tense time.
    Mr. Deutch. I appreciate that, Ambassador Feltman, and I 
appreciate the impassioned plea. As we await response from the 
administration, I hope they are listening to you. The answer to 
your question is a resounding, no, we do not want Russia to 
have full control of yet another country in the region. And I 
hope that we will hear from the administration soon.
    Let me finish with something that we have alluded to, the 
witnesses have alluded to, but I just want to address straight 
on. And, Ambassador Feltman, I am going to direct this to you, 
given your experience as a high-level official at the United 
Nations. And I wanted to just refer to a letter that was led by 
Congresswoman Luria, Congressman Zeldin, Congresswoman Stevens, 
and Congressman Waltz to the Secretary General about U.N. 
Security Council Resolution 1701.
    The point, it has been 13 years now, and 1701 called upon 
the Lebanese government to extend its sovereignty over all of 
Lebanon and disarm all armed groups in Lebanon, so there will 
be no weapons or authority other than that of the Lebanese 
State. UNIFIL was called upon to enforce this. And 13 years 
later there are 150,000 rockets pointed at Israel and 
construction of massive terror tunnels recently discovered as 
well.
    By any definition, this has been a failure. So, the 
question is, does it need to be reformed? Does the Lebanese 
government need more tools? How do you respond? This has been 
such a productive hearing about the need for us to support the 
protestors and strengthen the Lebanese government. And then, in 
southern Lebanon we have house after house after house housing 
rocket after rocket after rocket, 150,000, when there should be 
zero, when the Security Council spoke clearly that there should 
be zero. Do you have thoughts, Ambassador Feltman, on what can 
be done?
    Ambassador Feltman I apologize if I sound cynical after my 
6 years at the United Nations. But when I look at Security 
Council resolutions, I realize that the resolutions may have 
some value into establishing what is a theoretical objective. 
But if there is no political will for implementation, they 
count for little.
    Look at the Libya arms embargo. The Libyan arms embargo was 
renewed unanimously in June. All 15 Security Council members 
supported it. And now, many Security Council members are 
actually shipping arms to warring parties.
    Resolution 1701, and earlier 1559, which was a few years 
earlier, which called for the dismantlement of all Lebanese and 
non-Lebanese militias, also has not been implemented. There has 
been no political will demonstrated not only by the Lebanese, 
but by others on the Council to hold the Lebanese's feet to the 
fire.
    There is a briefing on Monday at the Security Council. I 
thanks Ms. Ghaddar for telling me that this is on Monday. And I 
am sure that there will be lots of members that will ask the 
U.N. Special Coordinator about 1701. But it requires political 
will from the outside that this is not just important on the 
days when the Security Council is meeting; it is important 
every day. And it requires the Lebanese themselves to start 
understanding the risks that their country is under because of 
Hezbollah's weaponry.
    And I think that that is something these protests have 
started to underscore. When you have the Shia starting to 
criticize Hezbollah, you have a whole new situation and a 
better opportunity to get this message across.
    Mr. Deutch. I acknowledge, and I am not surprised by, your 
cynicism. I would just finish by pointing out, I mean, UNIFIl, 
it is important to remember is the United Nations Interim Force 
in Lebanon. This is not just a question of pass a resolution 
and hope things happen. There is a process put in place to do 
it. The process has failed. And as you point out, Ambassador 
Feltman--and you have now pointed out twice, and I appreciate 
it--Hezbollah's rockets do not defend Lebanon; they put Lebanon 
at risk of war. They put the entire country at risk of war. It 
is a really important point.
    And you would like to make one more?
    Ambassador Feltman Yes, if I may, Mr. Chairman, Mr. Ranking 
Member, make one more point on UNIFIL. I was Ambassador in 
Lebanon during old UNIFIL, pre-2006 UNIFIL, little UNIFIL. I 
was, then, Ambassador and Assistant Under-Secretary-General at 
the United Nations watching big UNIFIL.
    And certainly, just like with the LAF, we could have a lot 
of questions on performance, on is UNIFIL or the LAF being 
aggressive enough in implementing its mandate. But there is 
something I want to point out. The type of operation that 
Hezbollah launched in 2006, a very sophisticated operation 
where they used the Israeli military communications channels, 
they had what sounded like native Hebrew speakers sounding as 
though that they were Israeli soldiers talking. They went 
across the border into Israel and kidnapped and killed Israeli 
soldiers. That would be very difficult to pull off today 
because of larger UNIFIL.
    UNIFIL is not perfect, but UNIFIL, by being in the south, 
has changed the rules of the game that I think reduce the risks 
of the accidental war. Before 2006, there was this regular 
back-and-forth between Israel and Hezbollah. Hezbollah, to show 
its resistance credentials, would have these ridiculous firing 
of mortars into unoccupied parts of Shebaa Farms, part of Syria 
that Israel occupied after the 1967 war. And Israel would 
respond by launching something into Lebanon, or vice versa. But 
there was always a risk that any of these could go haywire, 
that any of these could lead to a devastating war.
    Because UNIFIL is so big and so present, even if they are 
not doing what you and I think they should be doing, they are 
preventing that type of accidental war.
    Ms. Ghaddar. Can I say something about this?
    Mr. Deutch. Yes, Ms. Ghaddar.
    Ms. Ghaddar. I am from the south of Lebanon. I have lived 
there until I was 18. And things have changed drastically since 
then.
    The Shia today joining the Lebanese and starting to 
criticize Hezbollah is not new. It has been going on since 
2006, actually, and Hezbollah has been challenged by the Shia 
community for a very long time. This is new in terms of 
becoming public, and that is the main issue.
    And one of my main arguments since then is that the 
rhetoric of the resistance is gone. The people do not want a 
war anymore. The Shia mainly do not want a war anymore. What 
they want is actually alternative economic plans.
    Therefore, I always feel that one of the best ways to 
counter Hezbollah is to work with the Shia, not work with 
municipalities governed by Hezbollah. Today, the Shia are 
coming out and saying, ``We are Lebanese citizens,'' and we 
need to hear that. We need to know that they really want to 
join the rest of Lebanon. Working with local municipalities is 
ineffective because these are governed by Hezbollah. Work with 
the Shia, the business community, the civil society. And that 
is what will challenge Hezbollah the most.
    Mr. Deutch. And I appreciate it. I appreciate your insight 
very much. The fact that there has been so much discussion 
about the frustration with Hezbollah, the concern by Nasrallah 
about what is happening, is very hopeful.
    This last point I raised because, even as we go through all 
the rest of this, standing with the people of Lebanon as they 
make these peaceful demands, there are still 150,000 rockets 
that I think it is fair for us to continue to worry about, 
whether in the context of a Security Council resolution or 
these broader conversations.
    This has been an extraordinary hearing. I am grateful to 
all four of you for appearing with us today.
    The members may have some additional questions which they 
will submit for the record. And I ask they submit any questions 
within five business days.
    Mr. Deutch. And with that, and without objection, the 
meeting is adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]
    

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
                                

                       INFORMATION FOR THE RECORD
                       
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                       



                                 <all>
</pre></body></html>
